***tit x,"so
Office of the County Attorney
Hall of Justice 1210 Golden Gate Drive Suite 3147
Papillion, NE 68046-2889
(402) 593-2230 FAX: (402) 593-4359
L. Kenneth Polikov
Sarpy County Attorney

November 20, 2020
VIA FIRST CLASS MAIL
Scott S. Harris, Clerk
Supreme Court of the United States
Office of the Clerk
1 First Street, NE
Washington, DC 20543
No. 20-321
In the
Supreme Court of the United States
Walter D. Barnette,
Petitioner,
v.
HBI, L.L.C., et al.
Respondents.
On Petition for Writ of Certiorari
to the Nebraska Supreme Court
MOTION TO EXTEND TIME TO FILE A RESPONSE
Dear Mr. Harris,
I am in receipt of your letter dated November 2, 2020, which requests that a
response to the petition for writ of certiorari in the above referenced matter be filed
by Sarpy County. Pursuant to The Rules of the Supreme Court of the unitiMEWED

DEC - 2 2020
KFPIREMOEFJOUTLFTI.

15.3 and 30.4, I am requesting an extension of the time allowed to file such response
until January 4, 2021. This extension is requested in order to provide the Court
with an adequate and appropriate response to the petition. I have contacted
Christina M. Martin, Counsel for Walter D. Barnette, regarding this request and
have a response of no objection.

Thank you,

Andrea V. Gosnold-Parker
Deputy Sarpy County Attorney

Cc:

Christina M. Martin
Jeffrey J. Blumel
James Campbell
Jim L. Kuhn

No. 20-321
In the
Supreme Court of the United States
Walter D. Barnette,
Petitioner,
v.
HBI, L.L.C., et al.
Respondents.
On Petition for Writ of Certiorari
to the Nebraska Supreme Court
CERTIFICATE OF SERVICE MOTION TO EXTEND TIME TO FILE A RESPONSE

I, Andrea Gosnold-Parker, hereby certify that on November 20, 2020, a copy of the
Motion to Extend Time to File a Response in the above captioned matter was mailed
via USPS, First Class Mail, postage prepaid, to:
Scott S. Harris, Clerk
Supreme Court of the United States
Office of the Clerk
1 First Street, NE
Washington, DC 20543

Christina M. Martin
Counsel of Record for Petitioner
Pacific Legal Foundation
4440 PGA Blvd., Ste. 307
Palm Beach Gardens, FL 33410
(561)691-5000
cmartin@pacificlegal.org

Jeffrey L. Blumel
Counsel for Respondent HBI, L.L.C.
Dvorak Law Group
9500 W. Dodge Rd., Ste. 100
Omaha, NE 68114
(402)934-4770
jblumel@ddlawgroup.com

James Campbell
Solicitor General
Office of the Nebraska Attorney
General
2115 State Capital
Lincoln, NE 68509
(402)471-2683
jim.campbell@nebraska.gov

Additionally, as no physical address was available, service was made on November
20, 2020 on Jim L. Kuhn via email at jimlkuhn@cox.net, with electronic copies also
delivered to the above named recipients at the emails listed.

gi

BY:

Andrea V. osnold-Parker, #25760
Deputy Sarpy County Attorney
1210 Golden Gate Drive
Papillion, Nebraska 68046
(402) 593-2230
Counsel for Respondent Sarpy County
As required by Rule 29(5)(c), notarization is included as Counsel is current awaiting
admission to the Bar of the Supreme Court of the United States:

SUBSCRIBED and SWORN to before me, a Notary Public, in and for the County of Sarpy,
State of Nebraska, this 20th day of November, 2020.

GENERAL NOTARY - State of Nebraska
DAYNA S. CROISANT
wa My Comm. Exp. November 14, 2022

Notary Public

